Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants 
to the Honolulu Police Department
Honolulu, Hawaii

GR-90-03-009


February 2003
Office of the Inspector General
Note:   On September 30, 2002, the General Counsel of the Office of the Inspector General (OIG) advised the OIG Audit Division that 42 U.S.C. § 3796dd-2 limited the term of an Office of Community Oriented Policing (COPS) grant for the hiring of law enforcement officers to five years and the term of a grant for other purposes to three years; this opinion considered any grant renewal or extension periods to be included in the term limitations.  As a result, grant periods with terms that exceeded those in statute were considered to be in violation by the OIG and were addressed accordingly in our audit reports.  However, the OIG General Counsel, on June 13, 2003, rescinded his earlier opinion and now believes that the use of a "no-cost" grant period extension, in and of itself, is not inconsistent with the above statute reference.  As a result, findings developed solely because of this issue, if any, are no longer viewed as a violation of statute and the associated recommendation has been closed with no further action required by the entity audited or the COPS Office.
[This note added on 7/21/2003]


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services (COPS) to the Honolulu, Hawaii Police Department (HPD).  The purpose of the grant is to enhance community policing.  The HPD was awarded a total of $9,322,500 to redeploy the equivalent of 373.5 existing full-time police officers from administrative duties to community policing.
We reviewed the HPD's compliance with four essential grant conditions and except for the local match requirement we found weaknesses in each of the areas we tested:  advance/reimbursement requests, redeployment tracking, and community policing.  As a result of the deficiencies identified below, we question $7,457,137 in grant funds received and recommend an additional $1,865,363 be put to better use.1   In addition, we recommend that the HPD remit to the federal government $17,595 in excess interest earned.

The MORE 98 grant has exceeded the three-year limit set by statute.
The technology and equipment authorized under the MORE 98 grant were not fully implemented and operational as of December 14, 2001.
There has been no redeployment of officer full-time equivalent positions into community policing activities as a result of the   MORE 98 grant.
The HPD earned interest in excess of that allowable by grant guidelines.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.